Executive Report


Return to the USDOJ/OIG Home Page


Office of Justice Programs Grant to Encourage Arrest Policies to the City of Lavergne, Tennessee
GR-40-99-017
September 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grant number 97-WE-VX-0083.  The grant was awarded by the U.S. Department of Justice, Office of Justice Programs, to the City of LaVergne, Tennessee (grantee).  The grantee received $968,770 to procure a centralized, computer database linking 21 agencies in the Sixteenth Judicial District of Tennessee that are involved in the Domestic Violence Program. The grantee contracted with a vendor to provide hardware, software, wiring, and installation services for a domestic violence database.  The database will enable domestic violence professionals to spend more time assisting victims and less time on paperwork. 

	The original grant period was March 1, 1997, through August 31, 1998, and was extended through February 28, 2000, with a $300,000 supplement.  The supplement was awarded to develop a District-wide coalition team.  This team will establish uniform policies and procedures among participating agencies.  At the time of our audit, the grantee had not withdrawn funds from the supplement nor met special grant conditions. 

	In brief, our audit determined the grantee:

paid the vendor $587,935 for invoices that were not supported. 

	did not maintain inventory records of equipment purchased.
 
	did not file semi-annual program reports.

	did not submit Financial Status Reports timely. 

These items are discussed in detail in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix II.